<html>
<title> - THE ROLE OF RESEARCH UNIVERSITIES IN SECURING AMERICA'S FUTURE PROSPERITY: CHALLENGES AND EXPECTATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   THE ROLE OF RESEARCH UNIVERSITIES

                IN SECURING AMERICA'S FUTURE PROSPERITY:

                      CHALLENGES AND EXPECTATIONS
=======================================================================



                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 27, 2012

                               __________

                           Serial No. 112-93

                               __________

Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
74-730                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       PAUL D. TONKO, New York
ANDY HARRIS, Maryland                TERRI A. SEWELL, Alabama
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
LARRY BUCSHON, Indiana               VACANCY
DAN BENISHEK, Michigan               EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas

                            C O N T E N T S

                        Wednesday, June 27, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    13
    Written Statement............................................    14

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    16

                               Witnesses:

Mr. Charles O. Holliday, Jr., Chair, Committee on Research 
  Universities, National Academies
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. John M. Mason, Jr., Associate Provost and Vice President for 
  Research, Auburn University
    Oral Statement...............................................    40
    Written Statement............................................    42

Dr. Jeffrey R. Seemann, Vice President for Research, Texas A&M 
  University, and Chief Research Officer, the Texas A&M 
  University System
    Oral Statement...............................................    46
    Written Statement............................................    48

Dr. Leslie P. Tolbert, Senior Vice President for Research, the 
  University of Arizona
    Oral Statement...............................................    63
    Written Statement............................................    66

Dr. James N. Siedow, Vice Provost for Research, Duke University
    Oral Statement...............................................    84
    Written Statement............................................    86

Discussion.......................................................   100

              Appendix: Answers to Post-Hearing Questions

Mr. Charles O. Holliday, Jr., Chair, Committee on Research 
  Universities, National Academies...............................   115

Dr. John M. Mason, Jr., Associate Provost and Vice President for 
  Research, Auburn University....................................   118

Dr. Jeffrey R. Seemann, Vice President for Research, Texas A&M 
  University, and Chief Research Officer, the Texas A&M 
  University System..............................................   124

Dr. Leslie P. Tolbert, Senior Vice President for Research, the 
  University of Arizona..........................................   143

Dr. James N. Siedow, Vice Provost for Research, Duke University..   149


                   THE ROLE OF RESEARCH UNIVERSITIES

                IN SECURING AMERICA'S FUTURE PROSPERITY:

                      CHALLENGES AND EXPECTATIONS

                              ----------                              


                        WEDNESDAY, JUNE 27, 2012

                  House of Representatives,
    Subcommittee on Research and Science Education,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mo Brooks 
[Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 74730.001

[GRAPHIC] [TIFF OMITTED] 74730.002

[GRAPHIC] [TIFF OMITTED] 74730.003

[GRAPHIC] [TIFF OMITTED] 74730.004

[GRAPHIC] [TIFF OMITTED] 74730.005

[GRAPHIC] [TIFF OMITTED] 74730.006

[GRAPHIC] [TIFF OMITTED] 74730.007

[GRAPHIC] [TIFF OMITTED] 74730.008

[GRAPHIC] [TIFF OMITTED] 74730.009

[GRAPHIC] [TIFF OMITTED] 74730.010

[GRAPHIC] [TIFF OMITTED] 74730.011

    Chairman Brooks. The Subcommittee on Research and Science 
Education will come to order.
    Good morning. Welcome to today's hearing entitled ``The 
Role of Research Universities in Securing America's Future 
Prosperity: Challenges and Expectations.'' The purpose of this 
hearing is to examine the challenges faced by the Nation's 
research universities. The hearing will provide an opportunity 
to discuss the future outlook for these universities and to 
discuss the recently released National Academy Study, 
``Research Universities and the Future of America.''
    In front of you are packets containing the written 
testimony, biography, and truth-in-testimony disclosures for 
today's witnesses. I now recognize myself for five minutes for 
an opening statement.
    We are pleased to welcome our witnesses to discuss the 
challenges faced by the Nation's research universities, as well 
as the findings and recommendations from the June 14 report 
issued by the National Academies, ``Research Universities and 
the Future of America.'' I think we can all acknowledge the 
importance of our Nation's research institutions; therefore, I 
look forward to working with my counterparts on the 
Subcommittee to review measures that Congress, the Federal 
Government, State governments, research universities, and 
industry can take to improve these vital resources.
    Innovation has remained a part of the fabric of this Nation 
since its founding. Particularly in today's tough economic 
times, research universities play a vital role in America's 
ability to maintain its competitiveness in an increasingly 
technologically developed world, and the knowledge and skills 
produced by our Nation's research graduates provide the fuel 
for these endeavors.
    The Morrill Act of 1862, signed by President Lincoln, 
established a partnership between the Federal Government and 
the States to build land grant institutions that would address 
the challenges of creating a modern agricultural and industrial 
economy for the 20th century. This partnership continues with 
an even broader support of the Nation's educational, research, 
and economic endeavors. Three of our distinguished witnesses 
today come from these land grant institutions. It is my 
understanding that other Vice Presidents for Research from a 
number of these land grant institutions are in the audience 
today, as they are all in town to celebrate the 150th 
anniversary of the Morrill Act. To them, I offer a special 
welcome and thank you for your hard work and dedication.
    According to the recently released National Academies 
report, requested in 2009 by now-Full Committee Chairman Ralph 
Hall and other Members of Congress to identify the top 10 
actions to be taken in order to maintain the excellence of 
United States research and doctoral education, America's 
research universities have emerged as a major national asset, 
which supports the Nation's economic goals, among many other 
things. The challenges faced by these institutions, which are 
discussed in the report, range from unstable revenue streams 
and antiquated policies and practices to increasing competition 
from universities abroad.
    Today, we will continue to examine the future outlook for 
these universities, while taking into account the 
recommendations from the National Academies report. I look 
forward to a comprehensive discussion with our witnesses, and I 
thank them for taking the time out of their busy schedules to 
help the Subcommittee with this important oversight role.
    The Chair now recognizes Mr. Lipinski from the great State 
of Illinois for an opening statement.
    [The prepared statement of Mr. Brooks follows:]

         Prepared Statement of Subcommittee Chairman Mo Brooks

    Good morning. We are pleased to welcome our witnesses to discuss 
the challenges faced by the Nation's research universities as well as 
the findings and recommendations from the June 14 report issued by the 
National Academies, Research Universities and the Future of America.
    I think we can all acknowledge the importance of our Nation's 
research institutions; therefore, I look forward to working with my 
counterparts on the Subcommittee to review measures that Congress, the 
Federal Government, State governments, research universities, and 
industry can take to improve these vital resources.
    Innovation has remained a part of the fabric of this Nation since 
its founding. Particularly in today's tough economic times, research 
universities play a vital role in America's ability to maintain its 
competitiveness in an increasingly technologically developed world, and 
the knowledge and skills produced by our Nation's research graduates 
provide the fuel for these endeavors.
    The Morrill Act of 1862 established a partnership between the 
Federal Government and the States to build land grant institutions that 
would address the challenges of creating a modern agricultural and 
industrial economy for the 20th century. This partnership continues 
with an even broader support of the Nation's educational, research, and 
economic endeavors. Three of our distinguished witnesses today come 
from these land grant institutions. It is my understanding that the 
Vice Presidents for Research from a number of these land grant 
institutions are in the audience today, as they are all in town to 
celebrate the 150th anniversary of the Morrill Act. To them, I offer a 
special welcome and thank you for your hard work and dedication.
    According to the recently released National Academies report, 
requested in 2009 by now-Full Committee Chairman Ralph Hall and other 
Members of Congress to identify the top 10 actions to be taken in order 
to maintain the excellence of U.S. research and doctoral education, 
America's research universities have emerged as a major national asset, 
which support the Nation's economic goals, among other things. The 
challenges faced by these institutions, which are discusssed in the 
report, range from unstable revenue streams and antiquated policies and 
practices to increasing competition from universities abroad.
     Today, we will continue to examine the future outlook for these 
universities, while taking into account the recommendations from the 
National Academies report. I look forward to a comprehensive discussion 
with our witnesses, and I thank them for taking the time out of their 
busy schedules to help this Subcommittee with this important oversight 
role.

    Mr. Lipinski. Thank you, Chairman Brooks, and I thank you 
for holding this hearing and thank the witnesses for being with 
us today. And I think this is probably the biggest audience 
that we have had here for a hearing, so that is good to see.
    I fully agree with Chairman Brooks' comments about the 
importance of the Morrill Act. Its passage 150 years ago was 
undoubtedly an important milestone in our country's history.
    Research universities are extremely vital to our Nation's--
a vital part of our Nation's R&D infrastructure and are thus 
critically important to America's future economic success. And 
that means American jobs, so it is especially important today 
when everyone is asking us where are the jobs going to come 
from? They are going to come from innovation. Innovation, 
really, to a pretty significant extent--and I think we could do 
more with that--comes from our research universities.
    I understand all this from personal experience as a student 
and Assistant Professor at some of our Nation's finest research 
universities. I never pass up an opportunity to name them--
Northwestern, Stanford, Duke, University of Tennessee, and 
Notre Dame. I appreciate the opportunity to explore in depth 
the challenges all of our research institutions currently face 
and discuss possible steps that both the government and 
universities can take to help address these challenges.
    Research universities' contributions to the health, 
security, and prosperity of the American people cannot be 
overstated. Advances in the fields of medicine, biotechnology, 
the development of critical new military technologies, and 
countless economically important companies and products can be 
traced back to research conducted in university labs.
    In addition to contributing immeasurably to our economic 
prosperity and well-being, research universities also train the 
next generation of scientists, engineers, and innovators. For 
anyone who is interested in the role that the Federal 
Government played in starting up Silicon Valley by funding 
research at Stanford University, you should read online at 
SteveBlank.com; he has a secret history of Silicon Valley, 
which is very interesting. Now, that is military funding, but 
we are looking at all federal funding here. But a lot of people 
don't understand the role that federal funding does play at our 
research universities. And then, as you see with the history of 
Silicon Valley, that a lot of people think that it was all 
private, but much of that was originally started from public 
funding.
    More broadly, university-government partnership that began 
150 years ago with the Morrill Act has been critical to making 
many of these contributions possible. The Federal Government's 
support of academic research and patent laws to expedite the 
commercialization of such research has helped make many of our 
research universities the best and most productive in the 
world. Today, a number of countries are attempting to emulate 
our system, and they are increasingly competing with us to 
attract the world's top talent.
    Unfortunately, I say this is a time when research 
universities face acute challenges that threaten their ability 
to continue to provide a world-class education and help ensure 
the United States remains a global leader in innovation. The 
financial stress and resulting budget deficits our country has 
faced in recent years have forced the Federal Government to 
back away from bipartisan commitments to significantly increase 
support for basic research at universities. At the same time, 
public universities have received less financial support from 
state governments, putting increased pressure on funding 
sources like tuition to make up the difference.
    Despite the fiscal challenges we face, we in government 
cannot afford to jeopardize our Nation's future prosperity by 
not providing sustained and predictable support for scientific 
research and affordable education. At the same time, I believe 
that research universities need to adjust to this new fiscal 
environment by finding new and innovative ways to operate. I 
also believe that it remains well within the ability of our 
universities to continue to deliver a top-notch education, 
allow creativity and innovation to thrive, and attract some of 
the best researchers and students from around the country and 
the world.
    In closing, there are a couple of issues in particular that 
are raised in the NRC report that I look forward to discussing 
today. First, I am very interested in hearing about efforts to 
accelerate the pace at which discoveries make their way from 
lab to the market, and we welcome your thoughts on how the 
Federal Government can help you in these efforts.
    Also, I would like to hear about any initiatives at your 
universities aimed at addressing the high attrition rate of 
students in STEM subject areas and the need for greater 
diversity. Related to that, I would like to learn more about 
how you are working with industry to make sure you are 
graduating students with the skills that they need in the 
workforce.
    Thank you again, Chairman Brooks, for holding this 
important hearing, and I look forward to a productive exchange 
with our witnesses. With that I will yield back.
    [The prepared statement of Mr. Lipinski follows:]

   Prepared Statement of Subcommittee Ranking Member Daniel Lipinski

    Thank you, Chairman Brooks, for holding this hearing, and thank you 
to the witnesses for taking the time to be here today. I fully agree 
with Chairman Brooks' comments about the importance of the Morrill Act. 
Its passage 150 years ago was undoubtedly an important milestone in our 
country's history.
    Research universities are an extremely vital part of our Nation's 
R&D infrastructure and are thus critically important to America's 
future economic success--that means American jobs. I understand this 
from personal experience as a student and as an assistant professor at 
some of our Nation's finest research universities, Northwestern, Duke, 
Stanford, Notre Dame, and the University of Tennessee. I appreciate the 
opportunity to explore in depth the challenges all of our research 
institutions currently face and discuss possible steps that both the 
government and universities can take to help address these challenges.
    Research universities' contributions to the health, security, and 
prosperity of the American people cannot be overstated. Advances in the 
fields of medicine and biotechnology, the development of critical new 
military technologies, and countless economically important companies 
and products can be traced back to research conducted in university 
labs. In addition to contributing immeasureably to our economic 
prosperity and well-being, research universities also train the next 
generation of scientists, engineers, and innovators. For anyone 
interested in the role the Federal Government played in starting up 
Silicon Valley by funding research at Stanford University, you should 
read online The Secret History of Silicon Valley by Steve Blank.
    More broadly, the university-government partnership that began 150 
years ago with the Morrill Act has been critical to making many of 
these contributions possible. The Federal Government's support of 
academic research and patent laws that expedite the commercialization 
of such research have helped make many of our research universities the 
best and most productive in the world. Today a number of countries are 
attempting to emulate our system, and they are increasingly competing 
with us to attract the world's top talent.
    Unfortunately, I say this at a time when research universities face 
acute challenges that threaten their abililty to continue to provide a 
world-class education and help ensure the United States remains the 
global leader in innovation. The financial stress and resulting budget 
deficits our country has faced in recent years have forced the Federal 
Government to back away from bipartisan commitments to significantly 
increase support for basic research at universities. At the same time, 
public universities have received less financial support from State 
governments, putting increased pressure on funding sources like tuition 
to make up the difference.
    Despite the financial challenges we face, we in government cannot 
afford to jeopardize our Nation's future prosperity by not providing 
sustained and predictable support for scientific research and 
affordable education. At the same time, I believe that research 
universities need to adjust to this new fiscal environment by finding 
new and innovative ways to operate. I also believe that it remains well 
within the ability of our universities to continue to deliver a top-
notch education, allow creativity and innovation to thrive, and attract 
some of the best researchers and students from around the country and 
the world.
    In closing, there are a couple of issues in particular that are 
raised in the NRC report that I look forward to discussing today. 
First, I am very interested in hearing about efforts to accelerate the 
pace at which discoveries make their way from the lab to the market, 
and would welcome your thoughts on how the Federal Government can help 
you in these efforts. Also, I would like to hear about any initiatives 
at your universities aimed at addressing the high attrition rate of 
students in STEM subject areas and the need for greater diversity. 
Related to that, I'd like to learn more about how you are working with 
industry to make sure you are graduating students with the skills they 
need to succeed in the workforce.
    Thank you again, Chairman Brooks, for holding this important 
hearing, and I look forward to a productive exchange with our 
witnesses. With that, I yield back.

    Chairman Brooks. Thank you, Mr. Lipinski.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our witness panel 
for today's hearing. Our first witness is Mr. Charles O. 
Holliday, Jr., Chair of the Committee on Research Universities 
for the National Research Council of the National Academies. 
Mr. Holliday currently serves as the Chairman of the Board for 
the Bank of America Corporation. From 1998 to 2008, he served 
as the Chairman of the Board and Chief Executive Officer for 
DuPont.
    Our second witness, I have a particular fondness in this 
area, although I am an Alabama grad as is my wife. My sons and 
my money went to Auburn University. They got good engineering 
degrees I will add. But our next witness is Dr. John Mason, 
Jr., Associate Provost and Vice President for Research for 
Auburn University. He is responsible for the university's 
research program development, sponsored programs, and 
technology transfer and communications initiatives. Prior to 
joining Auburn University, Dr. Mason was the Associate Dean for 
Graduate Studies, Research, and Outreach in the College of 
Engineering at Penn State University.
    Our third witness, I want to welcome him to the 
Southeastern Conference, but without further ado, I am going to 
yield to Chairman Hall to introduce him more fully. Chairman 
Hall is Chairman of the Science, Space, and Technology 
Committee and from the great State of Texas.
    Chairman Hall. Thank you, Mr. Chairman, and honored to get 
to introduce Dr. Seemann and to welcome you, Doctor, to--as 
Vice President for Research at Texas A&M University and Chief 
Research Officer for the Texas A&M University System. I am 
pleased to introduce you and I am trying to do it exactly as 
John Sharp instructed me to and with his help with getting my 
wayward daughter into Texas A&M. She is waiting for it to 
start. She may be in the crowd somewhere here. I hope you will 
see her through, Doctor, and be considerate with her and 
patient. All she wants is a degree.
    Off the record a little, we have Texas A&M at Commerce and 
Texas A&M at Texarkana in my district, and great schools. Texas 
A&M at Commerce was at one time East Texas State Teachers 
College. I changed it when I was the Texas Senate to Texas 
State College. At that time my wife graduated from there and I 
had--I spoke to the student body at their graduation and got to 
hand her her degree, almost made her reach for it two or three 
times, but I knew better than to do that. But as--and Texas A&M 
at Texarkana is doing wonders, but my wife didn't seek the 
diploma of Texas A&M diploma. She kept her Texas--the East 
Texas State University and that way that prohibited me from 
beginning to sleep with an Aggie. I was both proud and 
apprehensive for that.
    But as Vice President, Dr. Seemann worked with faculty, 
staff, and administrative to expand and enhance the 
university's $700 billion plus research enterprise, which is 
quite a task. Prior to that, he--to coming to A&M--he served as 
Dean of the College of the Environment and Life Sciences at the 
University of Rhode Island. Dr. Seemann, we thank you for being 
here and joining us today as we thank each one of you. Thank 
you.
    I yield back.
    Chairman Brooks. Thank you, Mr. Chairman.
    And Dr. Mason, I would be remiss if I didn't add not only 
did my money go to Auburn and my sons get degrees but they have 
jobs. That is very important to a dad.
    Our fourth witness is Dr. Leslie P. Tolbert, Senior Vice 
President for Research at the University of Arizona. As Vice 
President, she supports the creative activities of a 611 
million research enterprise, promotes the application of new 
discoveries and innovations, and oversees the graduate programs 
of the university. Dr. Tolbert served on the faculty of the 
Georgetown University School of Medicine before joining the 
University of Arizona.
    On a side note, my--one of my daughters is a teacher in 
South Carolina. We have a 1,100 square foot, two-bedroom condo 
in Washington, D.C., my wife and I. My daughter brought six 
people from South Carolina with her, teachers, and I can give 
you the play-by-play of Arizona's win over those Gamecocks on 
Monday night and I wasn't watching the game. But they were 
really talking to that TV. Congratulations on your national 
title in baseball.
    Our final witness is Dr. James Siedow, Vice Provost for 
Research at Duke University. I love this panel. I am a graduate 
of Duke University, and that is where I met my wife most 
importantly. So thank you, Duke University. Dr. Siedow became a 
full Professor of Botany in 1987 and a Professor of Biology in 
2000 and has been Vice Provost for Research since 2001. A 
recipient of the Trinity College Distinguished Teaching Award, 
Dr. Siedow's research is represented by more than 120 
publications. And am I pronouncing that correctly? Is it Siedow 
or Siedow?
    Mr. Siedow. Siedow.
    Chairman Brooks. Siedow, okay. Thank you. I just wanted to 
make sure. Thank you, Dr. Siedow.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the Committee 
will have five minutes to ask questions.
    I now recognize our first witness, Mr. Charles Holliday. 
Mr. Holliday, you are recognized for five minutes. Thank you.

           STATEMENT OF MR. CHARLES O. HOLLIDAY, JR.,

           CHAIR, COMMITTEE ON RESEARCH UNIVERSITIES,

                       NATIONAL ACADEMIES

    Mr. Holliday. Chairman Brooks, thank you very much. It is 
an honor to be here today representing the National Academies 
and my 22 colleagues on the Committee. A point of reference is 
the National Academy went out to seek this Committee; they only 
had to call 23 people. So it gives you a feel for how important 
it was to these very busy cross-section of business leaders and 
academic leaders to be a part of this work.
    As you have pointed out our report, if you look at our 
entire title, it is actually 17 words. And I know people will 
want to shorten our title so we have a suggestion. We would 
like to call it the Prosperity Report. And if you would like a 
long title, you can call it the Prosperity and Security Report, 
because what I would like to present to you today it is because 
of our Nation's research universities that we enjoy such 
prosperity and security today and we hopefully laid out a plan 
to continue that. And I believe my colleagues on this panel 
here today will reinforce that.
    Let me briefly talk about the findings we had and then some 
of our recommendations, particularly those that we think are 
actionable right away. The good news is we have a commanding 
lead in research universities in the world. Thirty-five to 
forty of the top 50 are in America and that is extremely 
strong. And as I mentioned earlier, that is contributing 
greatly to our prosperity. But I must report to you we also 
found that our public universities are on thin ice. The cuts in 
funding--25 percent on average since 2002 to 2010, some as high 
as 50 percent--are straining them significantly. And we believe 
we are in jeopardy of losing that strength. And so many of our 
recommendations speak directly to the importance of them and 
what we must do.
    Keep it in perspective that 60 percent of the federally 
funded research comes from those public universities and 70 
percent of our Ph.D.s. So they are absolutely critical to the 
system.
    The key products--and you have mentioned this in your 
opening comments--are the talent, the people that come out, and 
the discoveries and so we must be focused on both of those 
because that is critical to our success.
    I would like to comment some about the role of business. I 
served for 37 years with the DuPont Company. For 11 years I was 
fortunate enough to serve as the Chairman and Chief Executive 
Officer. Our company was started by a university-trained French 
immigrant who came here 210 years ago and the reason DuPont is 
still a leading company today is because of our focus on 
research and because of our tight link with research 
universities.
    I would like to tell you just a very brief story from my 
experience there. I was having a dinner with a researcher who 
was receiving his 100th patent that year, and we were having a 
discussion about what our direction should be around raw 
discovery research or focused research. I was insisting on more 
focused because we had to deliver to our owners. And when we 
asked me, well, then, where will we get this broad research? I 
said we will get it from our research universities. He agreed 
but he said, what if they are not there? And my response was, 
they must be. And I can tell you from our two years of working 
on this Committee, the answer is they must be. It is so 
critical to our prosperity and security and we think a key role 
is to--how to make that happen.
    If I could just comment briefly on some things we can do 
that don't necessarily take money--obviously, our report 
requires some money--but we think there are things we can do 
today. And you look at the bureaucracy that has built up over 
time, the regulations that we put on my colleagues here on this 
panel, we believe there are things we could do to streamline 
that, still get the right controls to make sure the taxpayers' 
money is being spent carefully, but we believe we could reduce 
that with time. We had the same message for the States because 
they have put too much on it to make a difference.
    Second, we believe the business role is very important. 
Indeed, business does take the talented students and we license 
the great discovery research. The university is like that. They 
want us to give jobs to their students; they want us to use 
their research. But what we found from our work is too much of 
a buyer-seller relationship. We want businesses very actively 
involved so they are listening to the universities and guiding 
universities about what skills do students need to create jobs? 
What discoveries can they actually commercialize and create 
jobs? We think that is very important. We believe if you do 
that, you should take a hard look at the R&D tax credit. We 
think it should be made permanent but make it permanent in a 
very smart way. Reward companies that will have a 10-year 
relationship with the university, my colleagues here on this 
panel so that they can plan and we can plan. I think that would 
start a different system and I believe you can look at other 
countries in the world it is key. We believe funding cyber 
infrastructure is critical. We believe that will do a lot to 
improve the productivity at universities, which is a big thing 
that we can deal with.
    If I could focus on just one last example, 55 percent of 
the Ph.D. engineering students in this country have temporary 
visas and we must find a way to keep them in this country. We 
must also work on STEM so more of those are native-born 
Americans. But as you think about keeping this country, I would 
like to leave you with one thought. You have one Ph.D. 
researcher. From my experience at DuPont, he likely will have 
one or two assistants that does the more routine tests. In 
today's information technology world, he will almost have a 
full-time information technologist helping sort the data. And 
then there are maintenance facilities on the equipment. You can 
easily then create five jobs for every Ph.D. And this is in the 
discovery stage. Once you get to the commercialization stage, 
obviously, it is many fold that. So these positions are not 
just great for discovery; they are really great for massive 
jobs.
    We present to you the Prosperity Report. Thank you, sir.
    [The prepared statement of Mr. Holliday follows:]
    [GRAPHIC] [TIFF OMITTED] 74730.012
    
    [GRAPHIC] [TIFF OMITTED] 74730.013
    
    [GRAPHIC] [TIFF OMITTED] 74730.014
    
    [GRAPHIC] [TIFF OMITTED] 74730.015
    
    [GRAPHIC] [TIFF OMITTED] 74730.016
    
    [GRAPHIC] [TIFF OMITTED] 74730.017
    
    [GRAPHIC] [TIFF OMITTED] 74730.018
    
    [GRAPHIC] [TIFF OMITTED] 74730.019
    
    [GRAPHIC] [TIFF OMITTED] 74730.020
    
    [GRAPHIC] [TIFF OMITTED] 74730.021
    
    [GRAPHIC] [TIFF OMITTED] 74730.022
    
    [GRAPHIC] [TIFF OMITTED] 74730.023
    
    [GRAPHIC] [TIFF OMITTED] 74730.024
    
    [GRAPHIC] [TIFF OMITTED] 74730.025
    
    [GRAPHIC] [TIFF OMITTED] 74730.026
    
    [GRAPHIC] [TIFF OMITTED] 74730.027
    
    [GRAPHIC] [TIFF OMITTED] 74730.028
    
    [GRAPHIC] [TIFF OMITTED] 74730.029
    
    [GRAPHIC] [TIFF OMITTED] 74730.030
    
    Chairman Brooks. Thank you, Mr. Holliday.
    Next, we have Dr. Mason from Auburn University. Dr. Mason, 
you now have five minutes.

              STATEMENT OF DR. JOHN M. MASON, JR.,

              ASSOCIATE PROVOST AND VICE PRESIDENT

                FOR RESEARCH, AUBURN UNIVERSITY

    Mr. Mason. Thank you. Chairman Brooks, Ranking Member 
Lipinski, Chairman Hall, and other Members of the Subcommittee. 
Thank you for the opportunity to participate in today's panel. 
My name is John Mason. I do serve as the Vice President for 
Research at Auburn University.
    You may have heard it said that ``research is to teaching 
as walking is to running; you have to do the first in order to 
do the second.'' If we want robust learning in this country, 
all the way from kindergarten to post-graduate level and 
throughout business and industry, it starts with the creation 
of new knowledge.
    To put today's discussion in context, I offer the findings 
of a December 2011 report from Battelle and the R&D Magazine. 
They find that Asia, for the first time, will this year surpass 
the Americas in their share of total global research and 
development spending. The long-term implications for U.S. 
prosperity and security are profound.
    Research, along with our missions of instruction and 
outreach, is part of Auburn's balanced attempts at enhancing 
competitiveness of our future leaders and our workforce. We 
focus on five strategic areas at Auburn. They are all 
interdisciplinary--energy and the environment, health science, 
cyber systems, transportation, and the STEM disciplines--those 
of science, technology, engineering, and mathematics.
    We continuously work in partnership with federal agencies, 
business and industry to accomplish issues that are of national 
need. Auburn has produced breakthrough scientific discoveries 
such as the vapor wake canine that now screens passengers and 
cargo for explosives and also very proud that we educate such 
leading technology innovators such as Apple's CEO Tim Cook.
    A priority research area right now at Auburn has been, and 
continues to be, security, the security of our cyber 
infrastructure, food supply, and energy resources. In that 
context, we view relevant fundamental research as the 
underpinning of industry. At Auburn, we have been referring to 
this as ``putting ideas to work.'' Relevant fundamental 
research is that which industry can apply to innovate and 
create products and services. Our Auburn motto includes 
technology transfer. We have created and are sustaining an 
incubator for startup companies, a research park where 
technology transfer businesses are flourishing, and close 
collaboration with not-for-profit foundations.
    Although these elements are not unique, very common among 
our universities throughout the United States, the key to all 
our success is how they work together for some goal and 
function, not as independent silos. Throughout this process, we 
pay particular attention to commercializing our inventions, one 
of the best ways of moving new knowledge and creating jobs.
    Mr. Chairman, we believe that the recently released 
National Academies report has some insightful recommendations, 
and in the balance of the time, some quick response from Auburn 
University. We recognize and embrace the oversight and 
transparency that is necessary with public funds. However, on 
certain areas where there are redundant reviews and audits, it 
appears they are focusing on process rather than on results.
    Regarding written recommendation number four on university 
productivity, I can assure you we will remain diligent in 
seeking and addressing efficiencies. It is important, however, 
to recognize that once the storehouse of academic and research 
mindsets are eliminated, they are unlikely to be restored in 
the future.
    Recommendation number five deserves serious attention. 
Long-term partnerships and our relationship with business and 
industry will remove the uncertainty and will focus us on long-
term items of national need. Unfortunately, short-term shifting 
of national priorities creates a perverse incentive to chase 
funding rather than chase the discovery that will create jobs 
in the United States.
    In closing, I urge the Committee to consider the potential 
of the National Defense Education Act of 1958. It was at that 
point in time when we were focusing on space. The Federal 
Government helped pay tuition for those pursuing advanced 
scientific and engineering degrees and it helped to focus our 
research on areas of national need. While the national concern 
at that time was space, today it is the economic issues. 
Tuition waivers would be a very inexpensive way to accomplish 
research and economic development activities on national needs.
    Mr. Chairman, we are confident that relevant fundamental 
research enables teaching, enhances our learning, and is a job 
creator. Thank you for examining these important issues, and I 
thank you for the opportunity to provide my testimony.
    [The prepared statement of Mr. Mason follows:]
    [GRAPHIC] [TIFF OMITTED] 74730.032
    
    [GRAPHIC] [TIFF OMITTED] 74730.033
    
    [GRAPHIC] [TIFF OMITTED] 74730.034
    
    [GRAPHIC] [TIFF OMITTED] 74730.035
    
    Chairman Brooks. Thank you, Dr. Mason.
    Our next witness is Dr. Seemann. Dr. Seemann, you have five 
minutes.

              STATEMENT OF DR. JEFFREY R. SEEMANN,

                  VICE PRESIDENT FOR RESEARCH,

                     TEXAS A&M UNIVERSITY,

                  AND CHIEF RESEARCH OFFICER,

                THE TEXAS A&M UNIVERSITY SYSTEM

    Mr. Seemann. Chairman Brooks, Ranking Member Lipinski, and 
distinguished Members of the Subcommittee on Research and 
Science Education, my name is Jeff Seemann, and I have the 
privilege of serving as both the Vice President for Research at 
Texas A&M University and as the Chief Research Officer for the 
Texas A&M University System.
    I want to begin by thanking you for the chance to come 
before you today to present testimony on critically important 
issues relating to the challenges and opportunities facing our 
Nation's research universities, and I want to specifically 
commend your leadership for making this hearing possible.
    I would also like to extend my thanks to a fellow Texan, 
Congressman Ralph Hall, Chair of the Committee on Science, 
Space, and Technology. Chairman Hall continues a long and 
distinguished tradition of Texas leadership on science 
education and policy going back to Olin ``Tiger'' Teague, who 
chaired the precursor to today's Committee in the 1960s when 
Texas A&M made its bold move to join the Nation's major 
research universities. And I note that the portrait of Tiger 
Teague hangs over Chairman Hall's left shoulder.
    Today, Texas A&M stands among the Nation's top 20 research 
universities, and its rapid rise to Tier 1 research status owes 
a great deal to the strong foundation provided by the State of 
Texas, to the institution's land grant roots, to its heritage 
as a military institution, and to major investments from the 
Federal Government. The release of the National Research 
Council's report on ``Research Universities and the Future of 
America'' offers an important opportunity to revisit, 
reevaluate, and reenergize the state of the university-
government R&D partnership, a partnership that has helped make 
Texas A&M and our peers across America the great research 
universities that they are today.
    It is remarkable how much of the prosperity of our Nation, 
its economic success, its leadership in innovation, and its 
world leadership have flowed from the R&D pipeline that 
originates with this partnership, a partnership fueled by the 
taxpayers of our States and Nation and catalyzed by the ideas 
and discoveries of our faculty. The productivity of our 
research universities and our Nation are inextricably linked. 
This is why we must recommit to and reinvest in this 
partnership.
    I suggest that we can achieve rapid progress through the 
following four complementary actions, all reflected in the 
NRC's recommendations. First, research universities must take 
bold and aggressive steps to collectively and strategically 
focus on solutions to grand research challenges and areas of 
key national interest by prioritizing investments of internal 
resources into these areas and breaking down traditional 
academic and organizational barriers that may stand in the way 
of this goal.
    Second, federal agencies must continue, if not increase, 
support for these research priorities of shared national 
interest, particularly with targeted grant monies and support 
for young investigators and infrastructure development.
    Third, research universities must take greater action to 
ensure that we utilize resources even more efficiently and 
transparently than we already do, aggressively eliminating 
unnecessary and redundant administrative activities and 
barriers in order to make the most of limited resources.
    And fourth and finally, federal agencies and regulators 
must, in turn, act to reduce or eliminate unnecessary, overly 
burdensome, redundant, and costly regulatory and reporting 
obligations placed on the research operations of research 
universities and faculty. I promise you that we can do so 
without sacrificing accountability or safety.
    By keeping our sights set on high-priority current and 
future national and global problems, by investing in and 
focusing on solutions and impacts, and by ensuring the 
efficient use of resources, we will guarantee the continued 
productivity of our world-class R&D pipeline. Alternatively, 
our Nation runs the risk of ceding its current leadership in 
innovation to other countries and reaching a plateau in our 
research competitiveness. This we cannot afford.
    Texas A&M, with our long history of public service and our 
research enterprise that is dedicated to serving the national 
interest, looks forward to reaffirming our commitment to this 
partnership and to working diligently in collaboration with you 
and federal agencies to ensure that we can continue in the 21st 
century to serve and meet and our Nation's needs in the same 
highly successful way we did in the 20th century.
    Thank you for allowing me to speak with you today.
    [The prepared statement of Dr. Seemann follows:]
    [GRAPHIC] [TIFF OMITTED] 74730.036
    
    [GRAPHIC] [TIFF OMITTED] 74730.037
    
    [GRAPHIC] [TIFF OMITTED] 74730.038
    
    [GRAPHIC] [TIFF OMITTED] 74730.039
    
    [GRAPHIC] [TIFF OMITTED] 74730.040
    
    [GRAPHIC] [TIFF OMITTED] 74730.041
    
    [GRAPHIC] [TIFF OMITTED] 74730.042
    
    [GRAPHIC] [TIFF OMITTED] 74730.043
    
    [GRAPHIC] [TIFF OMITTED] 74730.044
    
    [GRAPHIC] [TIFF OMITTED] 74730.045
    
    [GRAPHIC] [TIFF OMITTED] 74730.046
    
    [GRAPHIC] [TIFF OMITTED] 74730.047
    
    [GRAPHIC] [TIFF OMITTED] 74730.048
    
    [GRAPHIC] [TIFF OMITTED] 74730.049
    
    [GRAPHIC] [TIFF OMITTED] 74730.050
    
    Chairman Brooks. Thank you, Dr. Seemann.
    Our next witness is Dr. Tolbert from Arizona University. 
Dr. Tolbert, you may now proceed with your five minutes.

              STATEMENT OF DR. LESLIE P. TOLBERT,

              SENIOR VICE PRESIDENT FOR RESEARCH,

                   THE UNIVERSITY OF ARIZONA

    Dr. Tolbert. Chairman Brooks, Ranking Member Lipinski, 
Chairman Hall, and other distinguished Members of the 
Subcommittee, thank you for the opportunity to speak with you 
today about the importance of the research being conducted in 
our Nation's research universities. My name is Leslie Tolbert. 
I am Senior Vice President for Research at the University of 
Arizona in Tucson, Arizona.
    Innovation driven by educated people drives our Nation's 
economy. The astounding research and education accomplishments 
in U.S. universities have been the backbone of our country's 
economic competitiveness, high living standard, and national 
security since World War II. During that time, the Federal 
Government has taken the lead in supporting this innovation, 
providing resources to universities to conduct research and 
graduate education in the national interest.
    In recent years, this essential research support has not 
kept pace with research opportunities or with international 
investment. At the same time, State support available to cover 
research costs in the public universities has declined 
precipitously. Private industry, traditionally another 
important source of research, is focusing increasingly on 
applied research and development leaving to the universities 
most of the fundamental research and the unexpected discoveries 
that provide the foundation for all future applications.
    How can the federal and state governments, the 
universities, and the private sector work together to ensure 
the long-term health of university-based research, which is the 
essential starting point for the innovation pipeline? The 
recently released NRC report--``Research Universities and the 
Future of America'' or the ``Prosperity Report''--makes some 
good suggestions.
    I am here today representing one of our Nation's large 
public research universities on the 150th anniversary of the 
first Morrill Act, which established the public land grant 
universities. The University of Arizona is a large, 
comprehensive land grant university of 39,000 students. With 
annual research spending over $610 million, we rank among the 
top 20 public research universities in the Nation. We 
consistently rank first or second in the physical sciences 
overall and are among the top four universities in space 
sciences. Among other accomplishments, we design and build the 
largest telescope mirrors in the world, and we are the only 
public university to have served as mission control for a NASA 
mission, this one to Mars. We also provide for the State and 
the Nation leadership in smart agricultural water use and 
genetically based pest control, and advanced mining 
technologies. Approximately 27 percent of the University of 
Arizona's operating expenses go to support research.
    Our total revenues are roughly 1/6 from State-appropriated 
funds, 1/4 from student tuition and fees, and the remainder 
from other sources, including externally sponsored grants and 
contracts, gifts, and investment income. Sponsored grants and 
contracts come primarily from federal agencies, including the 
National Institutes of Health, NASA, National Science 
Foundation.
    Support from the State of Arizona has fallen very steeply 
in recent years. Our university-state support has fallen from 
32 percent to 15 percent of our budget in the past decade with 
a reduction of almost 180 million in just the past five years. 
We are over $200 million behind in building renewal funds. With 
that reduction, our faculty number has dropped by 60 and 
older--in the last year--and older research buildings are being 
taken offline because of inadequate maintenance even as our 
student population continues modest growth.
    As State support declines and the competition for federal 
funding gets tougher, efficiency and careful planning are more 
important than ever for us. We are using our limited resources 
strategically to support areas of research and education in 
which we already are clear leaders or where we have clear 
potential to be competitive for projects that will have a major 
impact on society and still also to provide relevant 
undergraduate and graduate education to students from diverse 
backgrounds.
    Fundamental exploration and discovery is at our core, but 
we also work increasingly to push new findings out to practical 
application as quickly as possible, especially through 
expanding our industry relations to true partnerships. 
Increasingly, we perform research in large consortia where 
partners share expertise and share resources as an efficient 
mode of operation.
    Toward bolstering the cutting-edge research and education 
in our universities, we endorse several specific 
recommendations from the NRC report. First, federal and state 
agencies must understand and support the absolutely critical 
role played by university-based fundamental research and the 
continuum from fundamental research through applied research 
and development to new product development. New knowledge is 
the feed corn for the rest of the R&D system. Without new ideas 
and insights, progress won't happen. Not targeted to particular 
application, fundamental research has impacts that are 
unpredictable and may not occur for years or decades, but that 
research is essential and has the power to transform society.
    Second, universities should be able to recover as fully as 
possible the full costs of funded research, including full 
reimbursement of the so-called overhead costs that are intended 
to reimburse universities for the necessary expenditures that 
collectively support their research. This reimbursement has 
fallen behind over recent years, leaving the universities 
having to subsidize federally funded research with other 
funded. For my public universities, State funds continue to be 
key here, but declining state support makes this increasingly 
difficult.
    And finally, regulatory controls on federally funded 
research should be streamlined as much as possible to minimize 
the administrative burden on both the Federal Government and 
the universities and maximize the impact of federal funds spent 
on university research.
    Thank you very much.
    [The prepared statement of Dr. Tolbert follows:]
    [GRAPHIC] [TIFF OMITTED] 74730.051
    
    [GRAPHIC] [TIFF OMITTED] 74730.052
    
    [GRAPHIC] [TIFF OMITTED] 74730.053
    
    [GRAPHIC] [TIFF OMITTED] 74730.054
    
    [GRAPHIC] [TIFF OMITTED] 74730.055
    
    [GRAPHIC] [TIFF OMITTED] 74730.056
    
    [GRAPHIC] [TIFF OMITTED] 74730.057
    
    [GRAPHIC] [TIFF OMITTED] 74730.058
    
    [GRAPHIC] [TIFF OMITTED] 74730.059
    
    [GRAPHIC] [TIFF OMITTED] 74730.060
    
    [GRAPHIC] [TIFF OMITTED] 74730.061
    
    [GRAPHIC] [TIFF OMITTED] 74730.062
    
    [GRAPHIC] [TIFF OMITTED] 74730.063
    
    [GRAPHIC] [TIFF OMITTED] 74730.064
    
    [GRAPHIC] [TIFF OMITTED] 74730.065
    
    [GRAPHIC] [TIFF OMITTED] 74730.066
    
    [GRAPHIC] [TIFF OMITTED] 74730.067
    
    [GRAPHIC] [TIFF OMITTED] 74730.068
    
    Chairman Brooks. Thank you, Dr. Tolbert.
    Dr. Siedow, it is now your turn for five minutes. You may 
proceed.

               STATEMENT OF DR. JAMES N. SIEDOW,

                   VICE PROVOST FOR RESEARCH,

                        DUKE UNIVERSITY

    Mr. Siedow. Chairman Brooks----
    Chairman Brooks. Excuse me. Turn on your microphone.
    Mr. Siedow. Oh, sorry. Chairman Brooks, Ranking Member 
Lipinski, Chairman Hall, and Members of the Subcommittee, thank 
you for your efforts to highlight research universities and the 
important role these institutions play in our Nation's security 
and economic prosperity. I am Jim Siedow, Vice Provost for 
Research at Duke University, and I am grateful for the 
invitation to be part of this critical discussion.
    This is clearly a very important topic, not simply for 
those of us sitting at this table but also for the Nation as a 
whole, and I think it is very encouraging that our elected 
officials, including three Duke alums who sit on this 
Committee, see the NRC report and this topic as sufficiently 
important to hold this hearing.
    It has been said several times already but cannot be 
reiterated enough that one of the cornerstones of the success 
of the United States has achieved as a Nation over the past 150 
years since the enactment of the Morrill Act has been the 
partnership between the Federal Government and research 
universities, operating under the notion that universities with 
the support of federal and State governments would provide the 
fundamental research and new discoveries that would drive the 
development of new technologies, which in turn would underpin 
the Nation's economy. That was true in 1862; it was even more 
so in 1945 when Vannevar Bush eloquently restated the case in 
Science the Endless Frontier, and it is even more true today 
when we are locked in a struggle to maintain the primacy of our 
Nation and its economic system in the face of very steep 
competition.
    We believe the NRC report does a very good job of making 
the case of the need to reaffirm and revitalize this unique 
federal-university partnership. No less important, however, is 
the case the report makes for the need to strengthen the 
linkages between research universities and industry. Many 
people have made note of the fact that in the aftermath of the 
dismantling of the large corporate research laboratories which 
drove much of this Nation's industrial leadership in the 20th 
century, universities and industry have yet to come together in 
a way that fills the resulting gap. While most research 
universities today can point to successful examples of 
interaction with industry, in some cases interactions of large 
consequence, for the most part industry comes to universities 
today when they have a question they want answered or a problem 
solved, reducing the partnership to more of a fee-for-service 
transaction and less of a union of coequals trying to address a 
corporate grand challenge or move a university discovery beyond 
the so-called valley of death and into the marketplace.
    The large corporate laboratories of the past were masters 
at translating basic research discoveries into practical 
applications. Research universities today are hotbeds of basic 
discovery but remain somewhat slow and undercapitalized when it 
comes to translating these discoveries into useful 
applications.
    In light of this situation, what is clearly needed is a new 
partnership between industry and research universities that is 
designed to address these shortcomings. As outlined in the NRC 
report, the Federal Government is best positioned to broker 
this partnership and to help bring about a more collaborative--
and to quote the NRC report--``peer-to-peer'' set of 
interactions between the two entities.
    As has also been pointed out in previous testimony, a major 
challenge facing universities relates to costs associated with 
the growing number of research-related compliance regulations 
that have flowed down from federal agencies over the past 15 or 
so years. Most of the cost of administering these regulations 
have had to be borne directly by the university. To take Duke 
as an example, the research-related and quality-assurance cost 
to Duke is between--between the year 2000 and 2010 rose over 
300 percent at the same time that our direct and indirect costs 
only increased 130 percent.
    In addition to presenting the university with a challenge 
of continually keeping up and paying for new regulations, 
operationalizing our compliance responsibilities in many cases 
means flowing down these additional responsibilities to our 
research-active faculty. This has led to negative responses on 
the part of the faculty who see more of their time being 
committed not to carrying out funded research but to a myriad 
of mundane administrative duties. This is not to suggest that 
these regulations are unwarranted, only that the extreme to 
which some of these regulations have gone of late seems well 
beyond that needed to accomplish the original regulatory end. 
We support the recommendation in the NRC report that a thorough 
review of these regulations is in order.
    Finally, while not a Committee recommendation per se, the 
overarching tenor of the NRC report on the development of my 
testimony for this hearing led me to ask whether another 
potential outcome of this assessment of the partnership between 
research universities and the Federal Government might not 
include a call for a formal look at the country's fundamental 
research portfolio in light of the future strategic needs of 
the country. In essence, does the current distribution of 
federal support for basic research align or not with where 
technology will most need to be advanced in the future if the 
country is to maintain its competitive scientific and 
technological edge?
    I thank you for your time and interest, and I look forward 
to answering any questions you may have.
    [The prepared statement of Mr. Siedow follows:]
    [GRAPHIC] [TIFF OMITTED] 74730.069
    
    [GRAPHIC] [TIFF OMITTED] 74730.070
    
    [GRAPHIC] [TIFF OMITTED] 74730.071
    
    [GRAPHIC] [TIFF OMITTED] 74730.072
    
    [GRAPHIC] [TIFF OMITTED] 74730.073
    
    [GRAPHIC] [TIFF OMITTED] 74730.074
    
    [GRAPHIC] [TIFF OMITTED] 74730.075
    
    [GRAPHIC] [TIFF OMITTED] 74730.076
    
    [GRAPHIC] [TIFF OMITTED] 74730.077
    
    [GRAPHIC] [TIFF OMITTED] 74730.078
    
    [GRAPHIC] [TIFF OMITTED] 74730.079
    
    [GRAPHIC] [TIFF OMITTED] 74730.080
    
    [GRAPHIC] [TIFF OMITTED] 74730.081
    
    [GRAPHIC] [TIFF OMITTED] 74730.082
    
    Chairman Brooks. Thank you, Mr. Siedow.
    I want to thank the panel for their testimony, reminding 
Members that Committee rules limit questioning to five minutes.
    The Chair at this point will open the round of questions. 
Normally, the Chair would recognize himself first, but in this 
instance, I am going to exercise the Chair's prerogative and 
recognize a superior Chair, Ralph Hall from the great State of 
Texas.
    Mr. Hall, you are recognized.
    Chairman Hall. With that description, I am not sure you 
have recognized the right guy but I thank you for it. And I 
thank you for being a Chairman that recognizes the importance, 
as this full room indicates, of the subject matter that we are 
talking about today. As a matter of fact, Mr. Chairman, some 
three or four years ago, back--to be exact--June 22, 2009, Bart 
Gordon, who chaired Science, Space, and Technology for eight 
years and was a wonderful Chairman, an unusual Democrat, and I 
was the Ranking Member at that time. There were two Senators--
Barbara Mikulski and Lamar Alexander--that signed this letter 
on June 22, 2009, addressed to Dr. Ralph Cicerone, President of 
the National Academy of Sciences; and Dr. Charles M. Vest, 
President of National Academy of Engineering; Dr. Harvey V. 
Fineberg, President, Institute of Medicine. They may be in the 
audience, some of them; I am not sure, but they certainly know 
about this hearing.
    And we wrote to them asking, what are the top 10 actions 
that Congress, State governments, research universities, and 
others could take to assure the ability of the American 
research university to maintain the excellence in research and 
doctoral education needed to help the United States compete, 
prosper, and achieve national goals for health, energy, and 
environment and security in the global community of this 21st 
century? That was our letter. Unlike the problem Darrell Issa 
is having of getting any letters out of the Attorney General, 
they answered back quickly and their answer was this: 
``Research Universities and the Future of America,'' the 
summary there, the 10 breakthroughs and one by one took them as 
they were asked.
    And I have--really the question I want to ask Mr. 
Holliday--Dr. Holliday but I want to ask Dr. Seemann first. In 
your testimony you stated that ``each research university must 
leverage its respective assets and capacities to pursue those 
challenge areas that best fit their strengths and then 
aggressively adjust investments and priorities around their 
home field advantage.'' How has Texas A&M identified those 
assets and how have they handled those capacities?
    Dr. Seemann. Well, thank you for the question and let me 
also commend you for your vision in asking the National Academy 
to deliver this report. And let me also promise you that I will 
look closely after your family at Texas A&M University.
    Chairman Hall. Just so she passes.
    Dr. Seemann. As we say in Texas, yes, sir.
    Texas A&M was born as a great institution of agriculture 
and engineering and absolutely remains so and we have continued 
to grow on those strengths. More recently, we have begun to 
focus on the 21st century, I think the century that is 
increasingly about biology and the life sciences and begun to 
parallel developments in that arena. And over the past six to 
seven years, the State of Texas has made important and critical 
infrastructure investments in this arena in very state-of-the-
art facilities for preclinical studies, for genomic medicine, 
and most recently, for a national center for therapeutics 
manufacturing that have built on much of our capacity.
    And that was rewarded, as you may know, last week in Texas 
by the announcement of a $285 million award from Health and 
Human Services Biomedical Advanced Research and Development 
Authority to do development and production of vaccines for 
emerging medical threats, including pandemic flu and bioterror 
potentials. And again, that has come from our institution 
recognizing what its strengths are, recognizing where the 
opportunities are down the road--and particularly in the 
biomedical and life sciences--putting in place in partnership 
with the Federal Government, in partnership with the State the 
necessary infrastructure to support this success. And again, 
last week in Texas was a great day for Texas and Texas A&M with 
this very large award that we think will continue to move us 
forward.
    Chairman Hall. I thank you. I only have about 20 seconds 
left so I won't get to ask Mr. Holliday his question about the 
outlook for federal and State funding over the next seven years 
and how sometimes they glossed over some fiscal constraints 
that you have to take into consideration.
    And my time is up. I yield back, but Mr. Holliday, I 
probably will send you something by letter, appreciate if you 
will answer it.
    And Mr. Chairman, thank you very much for being generous 
and letting me go ahead with my interrogation. And I am still 
concerned about my granddaughter because I know my scholastic 
record--one time I made four Fs and a D and my dad punished me 
for spending too much time in one subject. I am not sure that 
she didn't get a little of that from me.
    I yield back.
    Chairman Brooks. Thank you, Mr. Chairman. Know that I will 
defer to your wisdom any time, you just let me know.
    I want to talk a little bit about our country's financial 
circumstances, and then I am going to follow that up with a 
question. Just to reiterate where we are, in November we blew 
through the $15 trillion debt mark. Sometime this year, we are 
going to blow through the $16 trillion debt mark. We have had 
three consecutive trillion-dollar deficits--$1.4 trillion, $1.3 
trillion, $1.3 trillion. We are in our fourth year of what is 
likely to be a trillion-dollar deficit. What is the impact of 
all this? Well, two fiscal years ago our debt service cost was 
$196 billion. This past fiscal year that ended September 30, 
our debt service cost was $221 billion, which means that we had 
an increase of $25 billion in a one-year period of time. What 
does that mean? Well, that is more than the entire NASA budget, 
one year. And we have lost that for future generations where 
those funds are no longer available for endeavors of a NASA-
size quantity.
    We have got a lot of competing demands for Federal 
Government monies. We have got the programs that you all have 
brought out. We have got national defense. We have got all 
sorts of wealth transfer programs--food stamps, government 
housing, you name it. We have possibilities of significant tax 
increases, but to be quite frank with you, to balance the 
budget would require more than a doubling of the income tax 
rates now being paid by all Americans who pay income taxes. And 
for those of you with an economic background, you can imagine 
the adverse effects that would have on our economy, the job 
losses and whether we would actually have an increase in 
revenue or a decrease in revenue is an open question.
    So with that situation in hand, I am concerned about the 
report recommendation--particularly the Strategic Investment 
Program; that is item number five--along with some of the other 
recommendations and whether they are consistent with the 
outlook for federal and State funding over the next several 
years. Please expand on how the study committee considered the 
current fiscal environment in its deliberations. Further, I am 
concerned that recommendations for the creation of a new 
program--and that is the Strategic Investment Program, number 
five, that asks for another $7 billion per year--and covering 
the full cost of research don't take into account the Nation's 
true economic situation.
    What are your thoughts on this? I understand how what you 
do is productive, but if we are going to come up with an 
additional $7 billion per year, where do you suggest it come 
from? Or how do you suggest we prioritize? That seems to be the 
task that Congress is faced with, properly prioritizing how our 
funds are spent.
    Mr. Holliday, if you will go first but then we will just 
work our way down the panel.
    Mr. Holliday. Thank you, Chairman Brooks.
    Excellent point. We discussed that at great length in our 
committee. As we stressed in the committee, we believe it will 
take time to fully fund these programs. But we believe--in 
response to your question about where it comes from is we 
should focus on the things we can control today. Many members 
of this panel have talked about the regulations that we believe 
are choking down our universities. In the report, we show three 
examples of universities that have found the ways to save $60 
to $75 million per year by looking at their own backbone 
operations, not the research itself but the support systems. 
And we believe those should be implemented.
    Urging companies to partner with universities is a step in 
the right direction. A simple example from the University of 
Tennessee and DuPont--we both were working on next-generation 
biofuels. DuPont and University of Tennessee decided to pool 
together. It would be much more effective and cut through 
costs. I think if we put the framework in place where in the 
short term we can do much more of that.
    If I could close with the question, though, is it is very 
important as you are considering deployment of funds to look at 
what are investments and what are costs? And we truly believe 
these are investments that get paid back multiple times--not 
immediately, but over time, to the country.
    Chairman Brooks. Dr. Mason, again, if there is any 
ammunition you can give me in this debate that we are likely to 
have in the halls of Congress, very much appreciate it.
    Dr. Mason. Yes, Chairman Brooks. From a fiscal point of 
view in our State of Alabama and at Auburn University, cuts are 
very real. We have to make very clear decisions. I will assure 
you we have had to understand with no new monies are coming in 
what do we do? We have made decisions at the local level as the 
Nation will have to what will we need to stop doing in order to 
do other things?
    On the other hand, we tried to align our capabilities and 
our facilities with what we looked at national strategic areas. 
One of those is in the cybersecurity area. By sharing our 
research facilities with the private sector, with the federal 
agencies, with State agencies, and various forms of the private 
sector, we have been able to pool funding at a certain level to 
accomplish and create some new opportunities and job creation.
    So my point is the reality is it may not be where all new 
revenues come from, but I do support the idea of the partnering 
among--across all areas.
    Chairman Brooks. Thank you, Dr. Mason.
    Dr. Seemann.
    Dr. Seemann. Yes, thank you.
    I remind you what you know about--much better than I--about 
the federal budget and that is we exist as successes that we 
have talked about today, the innovation that comes from 
American universities in a sense is funded through the Federal 
Government out of that very small part of the budget, the 
discretionary part that is left over when all the big things 
are funded. So I remind you that from that little bit that is 
there come future cures for cancer, come solutions to our 
energy challenges, come answers to our climate change dilemmas, 
et cetera, et cetera. So at least holding onto the investments 
that you are making--and thank you for making them--I think are 
critical down the road for this country to continue to see the 
extraordinary contributions in the future that we have seen in 
the past.
    But I would say as I said in my remarks, there are 
responsibilities in both--on both sides, the government and the 
universities. The first is to focus, is to pick and choose what 
it is we want to invest in and what we are going to let stand 
aside for a moment, what we are not going to invest in. And 
that is often one of the most difficult discussions both in 
government and at universities as to what we will do and what 
we won't do.
    Secondly, again, on both sides--as I emphasized and as Mr. 
Holliday said--I still think there is a great deal of room left 
for efficiencies. Universities are working every day to be more 
efficient with the resources that you give us, but we think we 
can be more efficient.
    On the other side, the regulatory burdens that are placed 
on us that we think are above and beyond are extraordinary 
costly to our universities and they directly take dollars away 
from supporting research itself. They take away dollars from 
working on cures for cancer. They take away dollars for finding 
energy solutions. They create burdens on our faculty that may 
consume up to 40 percent of a faculty member's time in non-
research functions because of that. And that is really not what 
we want our best and brightest minds working on.
    Chairman Brooks. Thank you, Dr. Seemann. I am in 
wholehearted agreement.
    Dr. Tolbert.
    Dr. Tolbert. Thank you, Chairman Brooks.
    I would echo everything that my colleagues have said and 
simply add to what Dr. Seemann just said that in fact this 
regulatory burden is growing, and it has an impact on federal 
spending and university spending. We feel across the 
universities that internally we must continue to find 
efficiencies in the way we respond to regulatory oversight in 
the use of taxpayer funds, but also that we would like to be 
partners in developing rational policy that will streamline 
federal regulations. I can think of a couple of areas. One 
would be in export controls where there are redundancies and 
actually inconsistencies in--among some of the regulations. 
They are extremely important regulations. The easier they are 
to follow, the clearer they are, the less work it will take and 
the better job we will do at the universities and also on the 
federal side in assuring accountability. That would be one.
    Another place would be effort reporting as a very specific 
example of something where we do sort of a whole separate 
shadow system of following effort on research grants that is 
probably not necessary and would be a place where we could find 
efficiencies.
    Chairman Brooks. Thank you, Dr. Tolbert.
    Dr. Siedow.
    Dr. Siedow. Thank you, Chairman Brooks.
    We may have reached that point where everything that needs 
to be said has been said but not everybody said it, so I will 
just reiterate a couple of points that have been made, because 
I think they are fairly critical. One is not everything in this 
report can clearly be implemented in the near term. And there 
are some fiscal realities which you have pointed out which I 
absolutely agree with that mean we are going to have to think--
the strategic program that they suggested may well have to be 
thought down the road when our economic and fiscal house is in 
better order. I think the suggestion is still good; it is just 
not viable at this point.
    I would just--boy, let me hammer home. If you want to get--
if you want to look at where we can get efficiencies or make 
strides right now, regulations are just burying us and we 
really do need to--as I think was recommended--it wouldn't be 
that costly to take a very hard look at the regulations now and 
see where we can streamline some of those.
    Just to bring up an example that hasn't been brought up, I 
am really concerned at Duke at how the conflict-of-interest 
regulations are running right up against orthogonal to our 
attempts to technology transfer. I mean we talk about--again, 
we talked about speeding up the rate at which technologies get 
incorporated from the basic discoveries into application where 
that second step we are just--we are getting--we are running 
into potholes because the conflict-of-interest rules are taking 
the very professors who should be taking that next step out of 
the picture or at least marginalizing them to some extent.
    Again, collaborations be it with industry, be it with other 
universities, I think many people in this room would be 
surprised at how much Duke and the University of North Carolina 
collaborate on a regular basis, particularly in the biomedical 
realm. Collaborations are just an excellent way to achieve 
efficiencies. I could go on. The list is quite long but I think 
there are--I guess the bottom line is I think there are plenty 
of things in this--the NRC report where they have 
recommendations that in fact would not--would either cost much 
or might not even cost much of anything at all that need to be 
looked at very carefully in the near term.
    Chairman Brooks. Thank you, Dr. Siedow.
    At this point I would like to thank Mr. Lipinski. It is 
abnormal for two Republicans to go back-to-back, but he and I 
discussed it and he was gracious enough to allow the Chairman 
of the Science, Space, and Technology Committee to go first 
followed by the Chairman of this Subcommittee.
    And Mr. Lipinski, as you engage in your Q and A, I am not 
often liberal, but I will be likewise liberal and generous with 
your time as you ask questions and seek responses.
    Mr. Lipinski. Thank you, Mr. Chairman. And I do have a lot 
of things that I want to explore with the panel, so I 
appreciate that.
    So many things, trying to figure out where to start. First 
thing I think I just want to quickly make it clear for 
everybody the situation that public universities are in right 
now. I think, as Mr. Holliday said, the public universities are 
on thin ice right now. Dr. Tolbert, what is the percentage--can 
you tell us again what the percentage is of funding at the 
University of Arizona that comes directly from the State?
    Ms. Tolbert. Our current level of funding in the--is in the 
20 percent range. It has fallen 40 percent in just the last few 
years.
    Mr. Lipinski. And I don't know if Dr. Mason or Dr. Seemann 
can tell us anything about their universities, what percent 
comes from the State. Do you know?
    Dr. Mason. Congressman Lipinski, I don't know the 
percentage but in the--I can do it in a different fashion, if 
you would allow me. I arrived at Auburn in '08 and since '08 
from an $800 million appropriation, over $125 million, I 
believe, has been reduced. So, you know, whether that is a 
proportion of the entire university budget, but the implication 
of that is profound.
    Mr. Lipinski. Dr. Seemann, do you have any----
    Dr. Seemann. I am not--it is around the number at the 
University of Arizona. I came three years ago from the 
University of Rhode Island, and during my tenure there, that--
the percentage of State support slipped below 10 percent. And I 
know there are a number of universities that are down at that 
end of the percentages of State support.
    Mr. Lipinski. Well, I was going to say Dr. Tolbert is doing 
relatively well there at the University of Arizona, from what I 
hear. And I hear more along the lines in the State of Illinois 
down closer to what Dr. Seemann is talking about, 10 percent. 
So I just want--I don't think most people in this country 
understand how--they still see State universities and they 
think that there is a large percentage of the money for those 
universities that is actually coming directly from the State. 
So I just wanted to make that point.
    Commercialization of university research, I think, is 
critically important here. We are investing a lot--the Federal 
Government is investing a lot, taxpayers are investing a lot in 
research at our universities across the country, and I think 
more needs to be done to--in commercialization. Is there 
anything specifically that anyone can talk about that their 
universities are doing to help with commercialization? I will 
start with Dr. Siedow.
    Dr. Siedow. We have--actually, you can go onto the Website. 
Actually, if you look in my written commentary, I actually 
pointed out we have an innovation and entrepreneurship program 
that basically tries to coordinate entrepreneurship across 
campus. And there we have the Duke Fuqua School of Business, 
the School of Law, the Medical School are all participants in 
any number--and when I say any number, the number is about--I 
think there are 12 different programs that I counted up when I 
was putting together the written testimony--that are various 
programs that are designed to either educate entrepreneurs or, 
in many instances, take actual IP and--as a part of the 
course--develop that IP and to try and move it downstream as it 
goes along. So we are--we really have--our strategic plan of 
several years ago focused on technology transfer and 
translation of our basic discoveries into application as one of 
our strategic goals. And we have worked very hard to bring that 
about. And again, if you look in my written testimony, there is 
a fairly good list of what we are doing and I think it is 
fairly impressive.
    Mr. Lipinski. Anyone else like to comment what their 
universities are doing? Dr. Tolbert.
    Dr. Tolbert. Thank you, Chairman--sorry, Ranking Member 
Lipinski.
    At the University of Arizona, we are changing the way we do 
technology commercialization, because we have not been as 
efficient and effective as we know we could be. One of the 
things we have done is to take a new dean of our business 
college, our College of Management, and give him strong control 
over the new direction we are taking with something we call 
Tech Launch Arizona. We have a top-ranked entrepreneurship 
program, and we are increasingly bringing the students and the 
faculty into that pipeline from basic research through to 
technology commercialization. We are bringing under one 
umbrella the functions of technology transfer and business 
incubation and movement into our technology park so that we can 
have an easier handoff. To the faculty member who is an 
innovator and an entrepreneur, it will be an easier process 
than it has been in the past.
    And then finally, I would say we know that we are going to 
have to raise philanthropic funds to help us through--I think 
it was my colleague to the left who talked about a valley of 
death. There are several valleys of death for new intellectual 
property, and we can't raise those funds any way except to go 
out to the private sector and the philanthropic community to 
help us generate a fund that eventually we expect will be 
evergreen.
    Dr. Seemann. And Texas A&M is doing all the same things 
that our peers are, but I would like to use the question to--in 
this arena to make a point about the relationship between 
research at universities and education and that they are not 
two separate things at our institutions, but rather they are 
inextricably linked even in this arena. It is critical that we 
teach our young people and our students about what it means and 
what has to happen to develop, commercialize, market 
technologies, create new companies, and I am very proud to say 
that my office, in this past year, in collaboration with our 
Mays School of Business, has created a student innovation 
accelerator bringing some extraordinarily bright students of 
Texas A&M in partnership with faculties and ideas to create for 
them a place, an opportunity, the resources to begin thinking 
about how this happens and in fact probably, if it works like I 
want, seeing the next Facebook come out of a small investment 
in putting our students in that kind of environment.
    Mr. Lipinski. I think that is a good point that this is 
all--we talk about commercialization; it's often lost that what 
we are talking about is education, educating students, 
educating faculty on how to commercialize, how to be 
entrepreneurs. So that is still all part of education. So if 
Dr. Mason--you don't have to add anything but if you have 
anything, go ahead.
    Dr. Mason. Well, I am an academic so I have to add 
something but I will be very, very brief----
    Mr. Lipinski. I understand that.
    Dr. Mason [continuing]. And I appreciate the Chairman's 
allowance. Just two comments in transition, so in our 
incubator--that is what you will also see in many universities 
where we have student companies being formed, what better way 
than to take this intellectual knowledge right from the 
students, and the students are starting companies. These are 
investments that we are talking about. While they often are 
perceived as costs, but the fact is, imagine investing in our 
next generation in that manner.
    Something even more specific, we are making transitions 
from what used to be referred to as technical licensing 
officers, a very regulatory type of approach. I oversee our 
501(c)(3) technology foundation, and we now hire business 
development people who come from industry and also bring along 
with them the private sector investment portfolios and our 
contacts. So in response to the Chairman's question and to 
yours, literally, the private sector is also willing to invest. 
It is the partnership that we were looking for. So thank you 
very much for the amount of time.
    Mr. Lipinski. And I wanted to--as people here have often 
heard me say--promote an NSF program called Innovation Corps 
that is teaching faculty members and teaming them up with 
faculty members, graduate students teaming up entrepreneurs and 
teaching them how to commercialize. And I think that we need to 
be doing more to sort of bring the best practices. From what 
you all have learned, that all of our universities have learned 
because a lot has been done in the past 20 years, especially in 
the last decade when we are talking about tech transfer, 
commercialization, and there are some different ways it is 
being done at different universities. And I think that we 
really need to collect all the best practices and--so that we--
everyone learns from each other.
    And the last thing I just want to say I think we could all 
agree up here in Congress to work on easing the regulatory 
burden, and I think that is something that we need to address 
further time in up here on Capitol Hill and making the changes 
that we can so that the Federal Government is not putting too 
many burdens on our universities.
    Thank you very much. Mr. Chairman, I yield back.
    Chairman Brooks. Thank you, Mr. Lipinski.
    I appreciate the patience of our two colleagues to my left. 
The Chair first recognizes Mr. Hultgren of the great State of 
Illinois.
    Mr. Hultgren. Thank you all for being here, so grateful for 
your time and your work. I am passionate about this subject and 
really do appreciate all that you have done.
    So much of what you said really struck me. One thing right 
at the end of Dr. Siedow's testimony talked about almost as a--
kind of a side comment but also maybe a challenge of looking at 
prioritization and how we actually are looking system-wide at 
basic scientific research and how we are spending money and are 
we doing it most effectively as we possibly could. I agree with 
that. I think we need to do that. I am frustrated being one of 
the new Members here in Congress feeling like we have very 
little vision as far as science policy goes for our Nation from 
the government, from our leadership and we need to change that. 
We need to be working with you and I want to be a part of that. 
I hope this--I know this Committee and Subcommittee will be 
part of that as well.
    I think part of that discussion, though, has to be not just 
limited to basic scientific research but science and what 
should we be doing as a Federal Government? I think this is a 
really important discussion to have. I am privileged to have 
quite a few physicist constituents in my district who are much, 
much smarter than I am and they remind me of that often. But 
they are a wonderful help. And one of the things that they talk 
to me about and it just clicked with me is there is really two 
forms of science. There is Newtonian science and Edisonian 
science. Newtonian science really is basic scientific research. 
Why does something work and how are we going to discover new 
reasons why things work? And Edisonian science is how do we 
apply? How do we use what we know to make our lives better? 
Both are very, very important.
    I absolutely am convinced that the private sector is very 
good at the Edisonian science, that if we are continuing to 
provide advancements in Newtonian science, private sector for 
the most part can step up and take the ball to the next part of 
applying it to make our lives better. But I am absolutely 
convinced that the private sector is not good at Newtonian 
science, that basic scientific research, and that is where we 
need our research universities to continue to step up, to 
continue to be funded, and I would say continue to work with 
our national laboratories. We haven't talked about that very 
much, but I think that is a key piece.
    And I just feel like right now there is an attack against 
our national laboratories. I can't see it any other way where, 
again, many applied science line items are being increased 30 
percent, 20 percent, and yet our national laboratories are 
being cut 10 percent, 15 percent. It is just--to me it is a 
misapplication of limited dollars that we have got where the 
private sector oftentimes can step in and do this applied 
science. No one other than universities, our national 
laboratories with the Federal Government's direction can really 
do this basic scientific research.
    So I want to be a part of that discussion. We need your 
help. I think you are a really key resource in this along with 
our national laboratories to be able to do that.
    One of the things I would challenge you all with--and I 
have talked to my own universities about this as well. I am 
privileged to represent Fermilab and--so that is how I get my 
connection of all my brilliant physicists that I get to 
represent. But I am so proud of what they have done and the 
great work that they have done but also sense frustration from 
them right now of really getting the support that they need to 
do the great work that I know they can do moving us into the 
future. But I have encouraged them to continue to build the 
relationships with their research universities and have 
research universities reaching out to their Members of Congress 
and Members of the Senate to be talking about how important 
this is.
    We all talk and believe in the importance of STEM education 
and getting young people interested in this, but we are not 
going to get them interested if there is not a place for them 
to be able to use that knowledge and education here in America. 
If they have got to go over to China afterwards to be able to 
use that or Russia or India or Europe, we have lost the battle.
    And so I encourage you just to continue to be talking to 
your Members of Congress of how important this is. I have seen 
it very practically where there has been issues where I have 
tried to talk to one of my colleagues and say, hey, I need your 
help to sign on to this legislation. We don't get an answer. 
Finally, we will call a university in their district, 
university president calls this person. Five minutes later they 
are on our letter. So you have a power and I just encourage you 
to continue to use it. We need to hear from you of how 
important this is for current students at your universities, 
for your professors, for the research they are doing, but also 
for our K-12th graders who are interested in going into science 
and yet are saying maybe there is not a bright future for me in 
that and I will go somewhere else. No, we can't let that 
happen; it is too important. So I am getting up on a soapbox. I 
apologize for that.
    But real quickly, in the last minute I have, one of the 
questions I had was brought up of regulation and the amount of 
time that is used dealing with regulation. And specifically 
wondered if one or two of you could maybe mention what reform 
could happen? What are some of the frustrations you have that 
is pulling you away from the research that could be done and 
some regulatory reform that we could be doing to free up our 
research universities to do the great work that they can do? 
Great, thank you.
    Dr. Tolbert. Congressman Hultgren, thank you for that 
question.
    Between the two of us at this end of the table, we have 
suggested a couple of areas. There are many areas--I think this 
really deserves significant attention--many areas where we can 
imagine important efficiencies are available that will not 
decrease our accountability. We will be held accountable for 
spending the dollars correctly. One is conflict of interest, 
which you heard about from Dr. Siedow. And another one is 
effort reporting. It is an area that is too technical to go 
into in detail here but it--we really do have parallel shadow 
systems which is just really not necessary. It is not a good 
waste of time--it is a good waste of time.
    Mr. Hultgren. It is a waste of time.
    Dr. Tolbert. Excuse me. And then the other I would bring up 
again is export control. It is increasingly difficult. Dual use 
is an important issue that has to be dealt with in great 
technical detail but, in fact, I think most universities have 
had to hire external legal counsel to help us interpret the 
ITAR--the International Trade in Arms Regulation--guidelines 
because they are virtually uninterpretable by us internally. 
And I think that that could be improved. Thank you.
    Mr. Hultgren. Thank you very much. Again, thank you all. If 
you have other suggestions and if it is okay if I can ask 
permission to follow up with you or my office to follow up with 
you on specifics of what we can do because we want to--I want 
to go after some of this. And again, we want accountability and 
I believe we can still have an accountable system without some 
of this crazy redundancy, without this waste of time, without a 
lot of things that are just outdated that just don't make sense 
any longer, new ways of doing something more efficiently.
    My time is up so thank you so much. I will be following up 
with you if that is okay just to get other suggestions you 
might have.
    I yield back.
    Chairman Brooks. Thank you, Mr. Hultgren.
    At this point, the Chair recognizes the Chairman of our 
Space and Aeronautics Subcommittee, Mr. Palazzo from the great 
State of Mississippi.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Mr. Lipinski brought up some good points when he was 
talking about the commercialization and entrepreneurship and I 
think, Dr. Tolbert and Dr. Siedow, you pretty much covered 
those. But as a follow-up question--this was going to be for 
Mr. Holliday, so if you could just put your entrepreneurship 
caps back on--when the study committee was assessing the needs 
of our research universities, did you discover that most 
research campuses now have tech transfer offices? Or is it 
still a major impediment to moving research out of the labs? 
And also how about entrepreneurship programs like the ones Dr. 
Tolbert and Dr. Siedow mentioned in their testimony?
    Mr. Holliday. Great question, sir.
    Yes, universities have tech transfer offices, but they are 
not as efficient and effective as they should be. From my 
experience with DuPont, we actually deployed three of our best 
tech transfer people to go around and coach universities on how 
to do that. We put in place a net company that--where they 
could actually sell that from, so we think that is a very 
important place.
    But what I would stress is if you start early on with 
partnering with entrepreneurs, partnering with businesses as 
they are developing the technology, then those routes to 
transfer it out become much more obvious and the technology is 
more fit for commercialization. Most discovery research at 
university is not ready to be commercialized. It still may take 
a year or two to be done so you have got to find the right 
partner to actually commercialize it, and that is what is 
critical.
    Mr. Palazzo. Thank you.
    Dr. Mason, in your testimony you mentioned that Auburn's 
Space Research Institute was recently closed. What happened to 
the students, professors, and researchers who had been working 
at and through the Institute?
    Dr. Mason. Yes, Congressman. When we all take on new jobs, 
you open a door and then you have to deal with what is behind 
the door. In that situation, we--the university had been trying 
to sustain the operations of that Space Research Institute. 
When I arrived there, the funding was not available through 
NASA and through others. Fortunately, over a four-year period 
we were able to, through attrition, some people were absorbed 
in other units, several of them went out and started some small 
companies, and then some of the facilities are now going to be 
shared with the University of Alabama at Huntsville. So in 
reality it was the productivity of trying to sustain something 
in separation from--so we primarily allocated to the locations 
that were best suited for trying to continue it.
    But the fact is that no longer exists at that university, 
so if one were to stand up some new initiatives, one has to 
recognize that infrastructure and that personnel are not there. 
So whether it is my university or others, when we go through 
these cuts, that is what will happen. Things will have to be 
redeployed elsewhere. That will cause some inefficiencies to 
start them up again.
    Mr. Palazzo. Dr. Mason, that was well said.
    Mr. Chairman, I yield back.
    Chairman Brooks. Thank you, Mr. Chairman.
    At this point, I am going to close with one set of remarks. 
And I focused on recommendation number seven from your report, 
and it is one that the Committee and its witnesses have focused 
on extensively--reducing regulatory burdens. And it seems to me 
that to a large degree we have been talking at the 30,000-foot 
level, maybe even have gotten down to the 10,000-foot level, 
but as much as possible I would ask our witnesses and their 
colleagues to get into the weeds a little bit.
    With respect to recommendation number seven, it says--and I 
am going to quote some particular parts--``federal policymakers 
and regulators and their state counterparts should review the 
costs and benefits of federal and state regulations eliminating 
those that are redundant, ineffective, inappropriately applied 
to the higher education sector, or that impose costs that 
outweigh the benefits to society. The Federal Government should 
also make regulations and reporting requirements more 
consistent across federal agencies that universities can 
maintain one system for all federal requirements rather than 
several thereby reducing costs. Reducing or eliminating 
regulations can reduce administrative costs, enhance 
productivity, and increase the agility of institutions.''
    If you would, I would appreciate it if you all could get 
some of your colleagues and yourselves to get into the weeds a 
little bit and identify specific regulations that you think 
that this Congress should be involved in the change of or the 
repeal of. Now, I would very much welcome that kind of in-the-
weeds insight that you can share with us, this Committee, in 
written form. You can also address my congressional office in a 
written summary of the regulations that I am talking about with 
the C.F.R.'s. If you can identify them by number and section, 
that would be wonderful.
    I was going to close my remarks at this point, but I see 
Dr. Siedow has his hand going up so if you would like to add a 
few remarks, inasmuch as I do have a degree from your 
university, I feel great deference.
    Dr. Siedow. I appreciate taking advantage of that, and 
thank you for recognizing me.
    I would just like to point out we can do that relatively 
easily. And point of fact, because last summer, in response to 
the OMB A-21 Task Force, they asked for examples of where we 
saw regulatory burdens, and we have actually--through the AAU, 
the auspices of AAU and COGR have actually developed a bunch--a 
whole list of in-the-weeds regulations that we think could use 
some help. So it will be a very easy thing for us to put 
together because we have done that within the past year.
    Chairman Brooks. Well, fantastic. If you could please 
communicate that list to the Subcommittee staff and to my 
office along with any justifications or reasonings, 
explanations as to why that particular provision needs to be 
changed or eliminated, I would very much welcome it. And I 
would love to be your champion with respect to overregulation 
by the Federal Government. I am familiar with the well-
intentioned but sometimes counterproductive effect some of our 
regulators have in the Federal Government.
    With that being the case, I want to thank the witnesses for 
their valuable testimony and the Members for their questions. 
In particular, I want to thank Mr. Lipinski for allowing the 
Chairman of the overall Committee, Mr. Hall, to go out of 
order.
    The Members of the Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
[GRAPHIC] [TIFF OMITTED] 74730.083

[GRAPHIC] [TIFF OMITTED] 74730.084

[GRAPHIC] [TIFF OMITTED] 74730.085

[GRAPHIC] [TIFF OMITTED] 74730.086

[GRAPHIC] [TIFF OMITTED] 74730.087

[GRAPHIC] [TIFF OMITTED] 74730.088

[GRAPHIC] [TIFF OMITTED] 74730.089

[GRAPHIC] [TIFF OMITTED] 74730.090

[GRAPHIC] [TIFF OMITTED] 74730.091

[GRAPHIC] [TIFF OMITTED] 74730.092

[GRAPHIC] [TIFF OMITTED] 74730.093

[GRAPHIC] [TIFF OMITTED] 74730.094

[GRAPHIC] [TIFF OMITTED] 74730.095

[GRAPHIC] [TIFF OMITTED] 74730.096

[GRAPHIC] [TIFF OMITTED] 74730.097

[GRAPHIC] [TIFF OMITTED] 74730.098

[GRAPHIC] [TIFF OMITTED] 74730.099

[GRAPHIC] [TIFF OMITTED] 74730.100

[GRAPHIC] [TIFF OMITTED] 74730.101

[GRAPHIC] [TIFF OMITTED] 74730.102

[GRAPHIC] [TIFF OMITTED] 74730.103

[GRAPHIC] [TIFF OMITTED] 74730.104

[GRAPHIC] [TIFF OMITTED] 74730.105

[GRAPHIC] [TIFF OMITTED] 74730.106

[GRAPHIC] [TIFF OMITTED] 74730.107

[GRAPHIC] [TIFF OMITTED] 74730.108

[GRAPHIC] [TIFF OMITTED] 74730.109

[GRAPHIC] [TIFF OMITTED] 74730.110

[GRAPHIC] [TIFF OMITTED] 74730.111

[GRAPHIC] [TIFF OMITTED] 74730.112

[GRAPHIC] [TIFF OMITTED] 74730.113

[GRAPHIC] [TIFF OMITTED] 74730.114

[GRAPHIC] [TIFF OMITTED] 74730.115

[GRAPHIC] [TIFF OMITTED] 74730.116

[GRAPHIC] [TIFF OMITTED] 74730.117

[GRAPHIC] [TIFF OMITTED] 74730.118

[GRAPHIC] [TIFF OMITTED] 74730.119

[GRAPHIC] [TIFF OMITTED] 74730.120

[GRAPHIC] [TIFF OMITTED] 74730.121

[GRAPHIC] [TIFF OMITTED] 74730.122

[GRAPHIC] [TIFF OMITTED] 74730.123

[GRAPHIC] [TIFF OMITTED] 74730.124

[GRAPHIC] [TIFF OMITTED] 74730.125

[GRAPHIC] [TIFF OMITTED] 74730.127

[GRAPHIC] [TIFF OMITTED] 74730.128

[GRAPHIC] [TIFF OMITTED] 74730.129

[GRAPHIC] [TIFF OMITTED] 74730.130

[GRAPHIC] [TIFF OMITTED] 74730.131

[GRAPHIC] [TIFF OMITTED] 74730.132

[GRAPHIC] [TIFF OMITTED] 74730.133


                                   

</pre></body></html>
